February 23, 2010

MARY ANNE GIBBONS
SENIOR VICE PRESIDENT, GENERAL COUNSEL

JULIE S. MOORE
SECRETARY OF THE BOARD OF GOVERNORS

SUBJECT: Audit Report – U.S. Postal Service Ethics Program
         (Report Number FT-AR-10-010)

This report presents the results of our audit of the U.S. Postal Service’s ethics program
(Project Number 09BM001FT001). The report, which addresses strategic risk, responds
to a request from the prior chairman of the Audit and Finance Committee of the Board of
Governors (Board) to review this program. Our overall objective was to determine
whether the Postal Service’s ethics program is properly designed and operationally
effective. See Appendix A for additional information about this audit.

Conclusion

The Postal Service designed an ethics program that complies with federal regulations.
For example, it designated an ethics official for the agency and provides an annual
report on the Postal Service’s ethics program compliance to the Office of Government
Ethics (OGE). Additionally, the Postal Service has voluntarily complied with aspects of
section 406 of Sarbanes-Oxley (SOX)1 and developed an automated system to track
and review annual financial disclosure submissions. Based on this voluntary
compliance, we identified areas that, if addressed, would increase the operational
effectiveness of the program and enhance its current design.

Specifically, management could enhance the communication of ethics policies and
supporting standards to its employees and stakeholders. Management has not provided
a clear, unified ethics mission and vision that reflects the “tone at the top” or
communicated this to its employees and stakeholders. A unified mission and vision
would provide clear guidance on how the Postal Service views ethics on a global scale,
and policies and procedures would naturally follow to support that vision on a more
limited scale. Additionally, management could improve the effectiveness of its ethics


1
    SOX Act of 2002, Section 406, Part (a) – Code of Ethics Disclosure, and Part (c) – Definition.
U.S. Postal Service Ethics Program                                                                  FT-AR-10-010



program as it relates to OGE reporting, and develop written procedures for reporting
relevant ethics issues to the Board.

We believe the diverse and fragmented nature of the ethics standards contribute to
these issues. Specifically, the Postal Service must comply with Executive Order 12731
that documents the principles of ethical conduct for executive branch employees and
requires implementation of the OGE program. In addition, the Postal Service voluntarily
complies with SOX Section 406, Code of Ethics for Senior Financial Officers. The
emphasis of the aforementioned standards vary significantly. A primary focus of the
OGE program is to address conflicts of interest in the federal government. Section 406
of SOX addresses ethical financial reporting.

Without greater awareness of the ethics program among employees and stakeholders,
management may inadvertently create situations where the Postal Service could be in
violation of certain ethics laws, regulations, and policies.2 In addition, sharing
information among all relevant parties increases program efficiencies and helps
maintain compliance with OGE requirements. Further, when there are clearly defined
Board reporting expectations, the Board is made aware in a timely manner of actions
that may adversely affect the Postal Service brand and can appropriately address them
and respond more effectively.

Communicating Ethics Standards to Employees and Stakeholders

Postal Service management could enhance the communication of ethics policies and
supporting standards to its employees and stakeholders.3 Specifically, it does not have
a clear, concise framework, published in a central location that is accessible to
employees and stakeholders. In addition, the ethics education program is not available
to all employees and is not refreshed on a periodic basis. We found only about
1 percent of Postal Service employees receive annual ethics training. Further,
management has not documented a clear mission statement that identifies the purpose
of the ethics program. As a result, management may inadvertently create situations in
which the Postal Service could be in violation of certain ethics laws, regulations, and
policies and, therefore, may adversely impact its brand.4 See Appendix B for our
detailed analysis of this topic.

We recommend the senior vice president, general counsel:

1. Consolidate Postal Service ethics policies and supporting standards and guidance in
   a central location that is easily accessible to employees and stakeholders.

2. Continue to enhance the ethics education program to include awareness updates on
   a regular basis and make them available to all employees.

2
  We did not identify any instances of such situations.
3
  For the purposes of this audit, stakeholders include Postal Service contractors and the public.
4
  We did not identify any instances of such situations.




                                                           2
U.S. Postal Service Ethics Program                                               FT-AR-10-010




3. Develop and communicate a mission statement for the ethics program.

Management’s Comments

Management agreed with the U.S. Postal Service Office of Inspector General’s (OIG)
conclusion that the federal ethics program is compliant with federal regulations and that
the Postal Service has adopted a Senior Financial Managers Code of Ethics. However,
they added that our report does not distinguish between conclusions and
recommendations that relate to the federal ethics program and those that relate to the
Code of Ethics. As such, the actions management is required to take when an “ethics”
violation occurs depends on whether the misconduct is a violation of federal regulations
or the Code of Ethics. Further, management did not agree that Appendix C was an
accurate portrayal of the ethics program.

Management generally agreed with the intent of recommendation 1, noting it is useful to
have centralized and more easily accessible ethics policies and supporting standards.
The general counsel plans to work with the chief information officer to place an
additional, more prominent link to ethics policies and supporting standards in guidance
on www.usps.com. The target date for completing this action is September 30, 2010.

Management generally agreed with recommendation 2 but stated the current budget
and severe financial constraints will not permit the significant financial investment
necessary to offer an ethics awareness training program to all Postal Service
employees. However, management agrees that any ethics training effort is worthwhile
and will continue to enhance the ethics program to the extent resources permit. Plans
include developing an ethics awareness campaign using simple, brief ethics messages
that can be displayed in the workplace via printed posters or included as printed
material in payroll inserts; continuing to provide all legally required ethics training each
year to all financial disclosure filers; and providing ethics training to employees
participating in formal and informal training programs. Further, the general counsel's
staff has been working to update and enhance the ethics training materials available on
the general counsel's internal web page to allow employees to take web-based (non-
live) training programs by December 31, 2010.

Although management partially disagreed with recommendation 3, the general counsel
is taking action to work with the chief information officer to include a new link on its
external and internal web pages to Section 662 of the Employee Labor and Relations
Manual. This manual provides readers with the purpose for the executive branch ethics
program. The target date for completing this action is September 30, 2010. See
Appendix D for management’s comments in their entirety.




                                              3
U.S. Postal Service Ethics Program                                                             FT-AR-10-010



Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 1, 2, and
3. Management’s planned actions should resolve the issues identified in the report.

As noted in Appendix A, the objective of our audit was to determine whether the Postal
Service ethics program was properly designed and operationally effective. Our goal was
to look at the totality of the ethics program. Since the Postal Service has the dual
responsibilities of complying with federal regulations while also preparing financial
reports similar to those of public corporations, we wanted to provide the Postal Service
with information to meet both responsibilities simultaneously. As a result, we provided
the Postal Service with information to improve its overall ethics program. The actions
taken in response to our recommendations should be considered to be based on both
the federal regulations and Code of Ethics. Further, we agree that Appendix C is not a
complete representation of the ethics program. Rather, it is a representation of the flow
of communication of the overall ethics program within the Postal Service.

Communicating Relevant Ethics Program Results

The Postal Service could improve the effectiveness of its ethics program as it relates to
OGE reporting. Current policies and procedures do not require communicating the
results of appropriate investigations and associated disciplinary actions to the
designated agency ethics official (DAEO). For example, no one informed Postal Service
Law Department personnel that Corporate Personnel Management (CPM)5 was tracking
and logging investigative results. As a result, the Postal Service increased its risk of not
accurately reporting the number of disciplinary actions taken due to ethics standards
violations and violations of criminal conflict of interest statues. See Appendix B for our
detailed analysis of this topic.

We recommend the senior vice president, general counsel:

4. Revise the procedures to include Corporate Personnel Management communicating
   to the Designated Agency Ethics Official relevant information related to ethics
   standards violations, violations of criminal conflict of interest statues, and applicable
   disciplinary actions.

Management’s Comments

The general counsel disagreed with the recommendation, stating the recommended
approach will not achieve the desired result. The general counsel believes the CPM
staff does not possess the requisite legal skills and expertise to spot and identify ethics
violations in an investigation report and suggested the OIG forward copies of these
reports simultaneously to the general counsel and the human resources officer when an
5
  CPM, an organization within Employee Resource Management (ERM), assists managers with human resource
issues and acts as a liaison between headquarter managers and the Human Resources Shared Service Center.




                                                     4
U.S. Postal Service Ethics Program                                             FT-AR-10-010



ethics violation is suspected. Further, by taking this approach, the general counsel
believes Postal Service will not run the risk of an employee who is not a lawyer missing
a violation when reviewing a Report of Investigation.

Evaluation of Management’s Comments

We believe it is the OIG’s responsibility to provide investigative activity data to the
Postal Service and the Postal Service’s responsibility to disseminate that data to the
proper personnel. As noted in the finding, it is important to include CPM in the
communication process because they are responsible for tracking and logging
investigative results, receiving reports, assigning penalties, enforcing disciplinary
actions, responding to the OIG, and maintaining the status of all cases. Our concern is
not whether CPM possesses the requisite legal skills and expertise to spot and identify
ethics violations within an investigative report but rather that the general counsel
receives the information it needs to complete the OGE annual report.

A process has been implemented in which OIG provides a report of its investigative
activities to the Postal Service. When the OIG provides investigative results to CPM, it
does not include the disciplinary action taken or planned in response to the investigative
activities. Therefore, if the OIG were to forward an investigation report to the general
counsel and CPM simultaneously, the report alone would not provide the general
counsel with all the information needed to complete the OGE’s annual report accurately.
Further, it would be ineffective for the OIG to provide a report to two areas within the
Postal Service and inefficient for the general counsel to receive information from two
different sources as they would have to reconcile the information. We continue to
believe the general counsel should work internally, in this case, with CPM, to obtain the
complete status of all cases. The general counsel, then, can evaluate the cases and
complete the OGE annual report accurately.

Although the OIG does not consider management’s comments responsive to the
recommendation, we will not pursue this recommendation through the audit resolution
process. We encourage the general counsel to reconsider its position and use the
complete information available from CPM to improve its overall ethics program.

Communicating to the Board

The Postal Service does not have clear written policies and procedures to ensure it
reports relevant ethics issues to the Board. Specifically, management has not defined,
assigned, and communicated requirements for reporting ethics issues to the Board, and
we were unable to identify any specific written guidance provided by the Board to Postal
Service management regarding its reporting expectations. Management advised that
although specific written procedures do not exist, the postmaster general and the
general counsel still provide information related to significant ethics issues to the Board
when those issues arise.




                                             5
U.S. Postal Service Ethics Program                                                FT-AR-10-010



When criteria describing the types of ethics issues management should report to the
Board do not exist, the Board may not always be informed in a timely manner of
relevant ethics violations, including those resulting in financial statement misstatements
and internal control deficiencies. Clear written policies and procedures would also
enhance the process and give the Board what it needs to address ethics issues that
may have an adverse impact on the Postal Service’s brand. See Appendix B for our
detailed analysis of this topic.

We recommend the secretary of the Board of Governors:

5. Coordinate with the Audit and Finance Committee of the Board of Governors to
   provide clear written expectations to Postal Service management regarding its ethics
   reporting requirements. The expectations should:

    a. Identify the types of ethics violations that constitute a relevant ethical issue.

    b. Define the point in the ethics process when the Board of Governors should be
       notified of relevant issues.

    c. Designate an official or organizational unit that would be responsible for reporting
       ethics issues to the Board of Governors.

Management’s Comments

Management generally agreed with the recommendation and stated the OIG,
postmaster general, and general counsel have verbally informed the board chairman
and/or other members of the Board when significant ethics matters arise; however, they
agreed that providing clear, written procedures regarding ethics reporting requirements
will ensure there are no lapses in the process or interpretation of the Board’s
expectations. The secretary of the Board has started documenting the criteria and
process for informing the Board of ethical violations. In addition, the Audit and Finance
Committee, on behalf of the Board, has made reporting ethical violations a priority
during committee meeting discussions, designating time in executive sessions to ask
both management and the OIG to brief them on potential violations. Management plans
to complete this action by May 31, 2010.

We recommend the senior vice president, general counsel:

6. Develop and communicate clear written policies and procedures based on Board of
   Governors expectations to ensure management reports relevant ethics issues to the
   Board of Governors.




                                               6
U.S. Postal Service Ethics Program                                           FT-AR-10-010



Management’s Comments

Management agreed with the recommendation and stated the general counsel will
direct the alternate agency ethics official to work with the secretary of the Board to
develop written policies and procedures to address reporting on relevant ethics issues.
Management plans to complete this action by May 31, 2010.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 5 and 6,
and management’s planned actions should resolve the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Joseph Corbett
    Vincent H. DeVito, Jr.
    Steven R. Phelps
    Sally K. Haring




                                           7
U.S. Postal Service Ethics Program                                                                   FT-AR-10-010



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

On October 17, 1990, the President signed Executive Order 12731 establishing fair and
exacting standards of ethical conduct for all executive branch employees. This order
documents the principles of ethical conduct and helps advance citizen confidence in the
integrity of the federal government. The order also documents the responsibilities of the
OGE,6 agencies, and employees, as well as delegations of authority. The Postal
Service is required to comply with this order.

The Employee and Labor Relations Manual (ELM) documents the policies and
procedures used by the Postal Service to disseminate information on ethics laws for
informational purposes and identifies all Code of Federal Regulations (CFR) applicable
to Postal Service employees. The CFR identifies components of the ethics program and
the duties of the persons designated to coordinate and manage the ethics program.
According to the CFR,7 the Postal Service’s ethics program should:

       Identify a liaison with the OGE.
       Provide for a review of financial disclosure reports.
       Initiate and maintain ethics education and training programs.
       Monitor administrative actions and sanctions.

Under the Postal Accountability and Enhancement Act, the Postal Service is required to
comply with Public Law 107-204, SOX Act of 2002, Section 404, Management
Assessment of Internal Controls. Additionally, the Postal Service voluntarily complies
with the requirements of SOX Section 406, Code of Ethics for Senior Financial Officers,8
by creating a Senior Financial Managers Code of Ethics. The Postal Service’s Senior
Financial Managers Code of Ethics attempts to promote honest and ethical conduct.

The Postal Service is in the process of implementing the Complaints Process
Improvement project. This project should help leverage coordinated, standard
approaches to determine common underlying issues, research and address root causes
to increase customer and employee satisfaction, reduce complaint cycle time and
resolution cost, and keep the Board apprised of key controls and significant complaints.
It appears this process will involve human resources managed processes and provide a
centralized coordination and management for internal complaint resolution.




6
  OGE is an agency within the executive branch established by the Ethics in Government Act of 1978. In partnership
with executive branch agencies and departments, OGE promotes high ethical standards for employees and
strengthens the public's confidence that government conducts its business with impartiality and integrity.
7
  CFR Title 5, Administrative Personnel, Section 2638.203, Duties of the DAEO.
8
  SOX Act of 2002, Section 406, Part (a) – Code of Ethics Disclosure, and Part (c) – Definition.




                                                         8
U.S. Postal Service Ethics Program                                            FT-AR-10-010



OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the Postal Service ethics program was properly
designed and operationally effective.

To address our objective, we:

       Reviewed applicable policies and procedures to determine the Postal Service’s
        ethics requirements and responsibilities.

       Evaluated the Postal Service’s ethics program to determine its compliance with
        standards.

       Interviewed the Postal Service General Counsel, ERM Division employees, and
        the OIG legal and investigative staff to determine roles, responsibilities, and
        effectiveness of the ethics program.

       Examined existing ethics processes to determine whether management
        adequately monitored and communicated them across the Postal Service.

       Reviewed the ethics communication process for senior financial managers to
        determine whether communications to the Board were timely and appropriate.

       Benchmarked the ethics program of four organizations, with a focus on their
        effectiveness in design and implementation, to determine points of comparison to
        the Postal Service ethics program.

We conducted this performance audit from May 2009 through February 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on December 3, 2009, and included
their comments where appropriate. We did not rely on computer-generated data to
support the opinions and conclusions presented in this report.

PRIOR AUDIT COVERAGE

The OIG has not performed prior audits related to this objective.




                                            9
U.S. Postal Service Ethics Program                                                             FT-AR-10-010



                                   APPENDIX B: DETAILED ANALYSIS

The Postal Service designed an ethics program that complies with federal regulations.
For example, it designated an ethics official for the agency and provides an annual
report on the Postal Service’s ethics program compliance to the OGE. Additionally, the
Postal Service voluntarily complied with parts of section 406 of SOX and developed an
automated system to track and review annual financial disclosure submissions. Based
on this voluntary compliance, we identified areas that, if addressed, would increase the
operational effectiveness of the program and enhance its current design.

Communicating Ethics Standards to Employees and Stakeholders

Postal Service management could enhance the communication of ethics policies and
supporting standards to its employees and stakeholders. If an employee is unable to
identify all applicable ethics standards, that individual may unwittingly violate those
standards and adversely impact the Postal Service’s brand.

Postal Service ethics policies and federal ethics standards are stored on several Postal
Service, OGE, and the Office of Government Printing websites. Employees with access
to the intranet may learn about certain aspects of the ethics policies, such as policy on
accepting gifts and financial disclosure requirements, on the Postal Service Law
Department’s ethics website. However, some employees cannot access the intranet
because they do not have access to a Postal Service computer. For example, many
bargaining unit employees’ job responsibilities do not require the use of a computer. In
addition, stakeholders cannot view the Postal Service ethics policies using these
websites because they do not have access to internal Postal Service information
system resources. We acknowledge they can access some ethics information in the
Postal Service’s external webpage (for example, Senior Financial Managers’ Code of
Ethics, annual reports, and Comprehensive Statements of Operations), but that
information is not consolidated into an easily identifiable location.

The Postal Service also uses internal sources such as its intranet, initial employee
orientation, and emails to educate employees on its ethics policies. However, after initial
orientation, less than 1 percent of its employees receive periodic ethics training
updates.9 Because the average Postal Service career employee’s tenure is 18 years, he
or she has not had ethics training, on average, in 17 years. Postal Service management
advised that training is not updated periodically for bargaining unit employees due to the
cost of and disruption to an employee’s daily work schedule. However, the Postal
Service uses tools such as webinars, newsletters, and an ethics help line to instill an
ethical culture given resource constraints. In addition, management advised they are
moving toward increased education for FY 2010. We acknowledge the cost associated
with formal training and the efforts to increase awareness through alternate methods.
Other methods, such as placards inserted in Leave and Earnings Statements, Postal

9
    This 1 percent represents personnel involved in the annual financial disclosure process.




                                                            10
U.S. Postal Service Ethics Program                                                                    FT-AR-10-010



Bulletin articles, or posters, may also provide awareness at minimal cost and disruption
to an employee’s workday.

Additionally, management has not documented a clear mission statement that identifies
the purpose of the ethics program. The two private sector and two quasi-government
organizations we benchmarked10 all maintain updated ethics policy and procedure
frameworks, including a clear mission statement that defines the purpose of their ethics
program. These organizations provide ethics standards and the code of ethics to
employees upon initial hire with updates provided annually. Additionally, their ethics
policies and procedures are available on their respective external websites. By making
ethics standards and a code of ethics available on external websites, these
organizations provide the means for employees and stakeholders, including bargaining
unit employees and the public, to develop an understanding of the standards of conduct
and the ramifications of noncompliance.

A clear, concise framework for the Postal Service ethics program published in a central
location along with supporting rules, federal standards, and Postal Service regulations
will help institutionalize the role of ethics in the Postal Service’s culture and everyday
working environment.

Communicating Relevant Ethics Program Results

The Postal Service could improve the effectiveness of its ethics program as it relates to
OGE reporting. Current policies and procedures do not include communicating to the
DAEO the results of appropriate investigations and associated disciplinary actions. As a
result, the Postal Service increases its risk of not accurately reporting the number of
disciplinary actions taken due to ethics standards violations and violations of criminal
conflict of interest statues.

Agreed-upon procedures11 between the OIG and the ERM12 require the OIG to inform
the Postal Service ERM organization of ongoing investigations and the results of
investigations involving headquarters (HQ) and Postal Career Executive Service
(PCES) employees,13 including senior financial managers. The ERM office then informs
the chief human resources officer and chief operating officer on the status of OIG
investigations and findings and informs the appropriate officer or area vice president of
investigation findings.



10
   All four organizations are publicly traded companies.
11
   The ERM office documented these procedures in a flowchart, OIG Investigation Process, dated October 2, 2007.
12
   The ERM organization provides and supports a full range of employee-related programs that positively affect
Postal Service performance, including the management of hiring policy, compensation, benefits, safety, training, and
organization structure.
13
   PCES is a staffing category that develops and maintains a group of employees for key management positions.
There are two levels in PCES: Level I includes district, area, and HQ executives, and Level II consists of officers,
including vice presidents.




                                                         11
U.S. Postal Service Ethics Program                                                                   FT-AR-10-010



ERM’s CPM is responsible for tracking and logging investigative results, receiving
reports, assigning penalties, enforcing disciplinary actions, responding to the OIG, and
maintaining the status of all cases. CPM also meets with an area Human Resources
manager or HQ manager to identify the appropriate actions they should take as a result
of ethics violations involving HQ and PCES employees.14 Although the OIG provides
investigative results to the Postal Service, it does not determine disciplinary actions
taken. See Appendix C for our flowchart of the ethics program process.

These procedures do not include the DAEO as a participant in the process. However,
according to the CFR Title 5, the DAEO responsibilities include periodically evaluating
the ethics program and submitting an annual report on ethics program compliance to
the OGE. The information collected and maintained by CPM would assist the DAEO in
providing accurate responses in the annual report to the OGE and in conducting a
comprehensive evaluation of the ethics program. This information would also help the
Postal Service ensure the application of its ethics policies, penalties, and advice is
consistent, fair, and sufficient. However, because the DAEO was not included in the
process, she did not use those resources to complete the OGE questionnaire.

As a result, the DAEO did not accurately report on the number of disciplinary actions
taken due to ethics standards violations and violations of criminal conflict of interest
statues, as required by the OGE.15 For example, in response to the 2008 Agency Ethics
Program Questionnaire,16 the DAEO incorrectly reported17 that the Postal Service did
not take any disciplinary actions when it actually had. In addition, the DAEO’s ability to
provide an accurate record of administrative actions taken, as suggested by the OGE,18
is impaired when all groups involved in the program do not communicate effectively.

Management should provide information requested by the OGE in a complete and
timely manner. When information is not shared among all relevant parties, there is
increased risk the Postal Service may not adequately address OGE requirements and
comprehensively evaluate the ethics program. Additionally, an agency that fails to take
corrective actions regarding OGE orders involving the establishment or modification of
an ethics program in accordance with applicable requirements may be reported to the
President and the Congress.




14
   The areas and districts track investigation reports regarding non-HQ employees.
15
   Ethics in Government Act of 1978, Section 402, Authority and Functions, subsection e (1).
16
   Management was required to file this questionnaire by February 2, 2009.
17
   Disciplinary action is reported at a summary level, including violations by all employees.
18
   When OGE conducted its audit in 2005, they suggested the Postal Service also record administrative actions.




                                                        12
U.S. Postal Service Ethics Program                                                                     FT-AR-10-010



Communicating to the Board

Management has not outlined, assigned, and communicated written requirements for
reporting ethics issues to the Board. While the Board has provided verbal guidance to
Postal Service management regarding its reporting expectations, the groups involved in
the process were unable to demonstrate they reported all relevant ethics issues. Postal
Service general counsel advised that although a written policy does not exist, they
believe that when significant ethics issues arise, the postmaster general adequately
communicates them to the Board. While we acknowledge this process and did not note
any cases that should have been reported to the Board but were not, without written
criteria, there is not a clear definition of what cases should be presented to the Board.

Federal regulation requires that management furnish to the Board information regarding
matters that significantly impact the Postal Service’s relationship with its stakeholders.19
The Postal Service Board defines what it expects in integrity and ethical values and can
confirm its expectations through its oversight activities. In addition, the Board is
responsible for addressing issues that may have an adverse impact on the Postal
Service’s brand. Senior management is accountable to the Board and plays a key role
in establishing the organization’s ethical tone.20 In addition, Postal Service policy
requires employees and contractors to respect and adhere to the principles of ethical
conduct.21

The two private sector and two quasi-governmental organizations we benchmarked
have written policies that identify reporting responsibility and require the disclosure of
any known or suspected code violations to the Board of Directors’ Governance
Committee and, in turn, the full Board.

When criteria describing the types of ethics issues management should report to the
Board do not exist, the Board may not always be informed in a timely manner of
relevant ethics violations, including those resulting in financial statement misstatements
and internal control deficiencies. We believe that written policies and procedures would
enhance the process and give the Board what it needs to address ethics issues that
may have an adverse impact on the Postal Service’s brand.




19
   Title 39, Postal Service, CFR, Section 3.8, Information Furnished to the Board – Special Reports, paragraph (d).
20
   Committee on Sponsoring Organizations of the Treadway Commission Internal Control – Integrated Framework,
September 1992.
21
   ELM Section 662.1.




                                                         13
U.S. Postal Service Ethics Program                                                  FT-AR-10-010

                                     APPENDIX C: ETHICS PROGRAM PROCESS FLOWCHART




                                                          14
U.S. Postal Service Ethics Program                                  FT-AR-10-010

                                APPENDIX D. MANAGEMENT’S COMMENTS




                                               15
U.S. Postal Service Ethics Program        FT-AR-10-010




                                     16
U.S. Postal Service Ethics Program        FT-AR-10-010




                                     17
U.S. Postal Service Ethics Program        FT-AR-10-010




                                     18
U.S. Postal Service Ethics Program        FT-AR-10-010




                                     19
U.S. Postal Service Ethics Program        FT-AR-10-010




                                     20
